NO. 19-247

In the
Supreme Court of the United States
CITY OF BOISE,

Petitioner,
v.
ROBERT MARTIN, LAWRENCE LEE SMITH,
ROBERT ANDERSON, JANET F. BELL,
PAMELA S. HAWKES, AND BASIL E. HUMPHREY,

Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
BRIEF OF AMICUS CURIAE
VENICE STAKEHOLDERS ASSOCIATION
IN SUPPORT OF PETITIONER

JEFFREY LEWIS

COUNSEL OF RECORD FOR AMICUS CURIAE

JEFF LEWIS LAW

609 DEEP VALLEY DRIVE, SUITE 200
ROLLING HILLS ESTATES, CA 90274
(310) 935-4001
JEFF@JEFFLEWISLAW.COM
SEPTEMBER 25, 2018
SUPREME COURT PRESS

♦

(888) 958-5705

♦

BOSTON, MASSACHUSETTS

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTERESTS OF AMICI CURIAE ............................. 1
ARGUMENT ............................................................... 3
I.

THE COURT SHOULD REVIEW AND REVERSE
MARTIN BECAUSE CITIES SUCH AS BOISE AND
LOS ANGELES ARE HAMSTRUNG BY ITS
REQUIREMENT OF PROVIDING BEDS FOR ALL
HOMELESS BEFORE ENFORCING MUNICIPAL
LAWS FOR THE PROTECTION OF HEALTH AND
PUBLIC WELFARE ............................................... 3
A. The Martin Court Erred in Requiring
Beds for an Entire Homeless Population Rather than Beds for the Number of
Homeless Cited on Any Given Night........... 8
B. The Martin Court Failed to Adequately
Define “Voluntary” and “Involuntary” as
It Relates to Homelessness ......................... 8
C. The Martin Court Failed to Consider
the Impact of Homeless Encampments
on the Use of Shelters ............................... 10

CONCLUSION.......................................................... 15
APPENDIX ............................................................... 16

ii
TABLE OF CONTENTS—Continued
Page
APPENDIX TABLE OF CONTENTS
Affidavit of Mark Ryavec Regarding Interests of
VSA (September 25, 2019) ................................. 1a
Photos of the Impact of Homeless Problems in
Venice Beach....................................................... 7a

iii
TABLE OF AUTHORITIES
TABLE OF AUTHORITIES

Page

CASES

Jones v. City of Los Angeles,

444 F.3d 1118 (9th Cir. 2006) ....................... 3, 4, 5

STATUTES
L.A. Mun. Code. § 41.18(d) ................................. 4, 5, 6
CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VIII ......................................... 3, 4
OTHER AUTHORITIES
2019 Greater Los Angeles Homeless Survey,
https://www.lahsa.org/documents?id=34212019-greater-los-angeles-homeless-count-cityof-los-angeles, August 25, 2019 .......................... 7

Another Shooting in
Venice Police Hunting for Suspect,

https://yovenice.com/2018/03/15/anothershooting-in-venice-police-hunting-for-suspect,
August 16, 2019 ................................................. 12

City of LA 2018-19 Budget
Issued by L.A. Controller’s Office,
https://lacontroller.org/wp-content/uploads/
2019/02/BUDGET-2018-19, August 25, 2019..... 7

iv
TABLE OF AUTHORITIES—Continued
Page
Courthouse News Services,

‘Commercialized Grittiness’ Taking Hold in
Free-Spirited Venice, California,

https://www.courthousenews.com/
commercialized-grittiness-taking-hold-in-freespirited-venice-california,
August 16, 2019 ................................................... 5

Dan Sim

He Was a Yale Graduate, Wall Street Banker
and Entrepreneur. Today He's Homeless in
Los Angeles, https://edition.cnn.com/2019/09/

17/us/los-angeles-yale-graduate-homeless/
index.html?no-st=1568949532, last accessed
on September 19, 2019 ...................................... 10

Fox News,

Venice Beach Residents Rally to Combat
Homeless Encampments in Their
Neighborhood, Aug. 29, 2019

https://video.foxnews.com/v/6080063740001/
#sp=show-clips................................................... 13

Jones v. City of Los Angeles:
In Search of a Judicial Test of Anti-Homeless
Ordinances, 25 LAW & INEQ. 515 (2007) ............. 4
Los Angeles Downtown News,

High Security Costs Tied to Bridge Housing
Patrols http://www.ladowntownnews.com/

news/high-security-costs-tied-to-bridgehousing-patrols/article_31d2f7cc-6870-11e98289-c7b22d8543a1.html, August 25, 2019 ....... 7

v
TABLE OF AUTHORITIES—Continued
Page
Los Angeles Homeless Services Authority, Memo,
https://www.documentcloud.org/documents/
4550980-LAHSA-Sheltering-Report.
html#document/p14/a431609,
August 24, 2019 ................................................... 7
Los Angeles Times,

Garcetti Says L.A. Can Resume Disputed Ban
on Overnight Sidewalk Sleeping, https://www.

latimes.com/local/lanow/la-me-ln-sidewalksleeping-20180622-story.html, August 25,
2019 ..................................................................... 4
Motion by City of Los Angeles Committee of
Homelessness and Poverty, http://clkrep.lacity.
org/onlinedocs/2019/19-0602-s1_mot_07-302019.pdf, August 25, 2019......................... 6, 8, 14

1

INTERESTS OF AMICI CURIAE1
The VSA, founded in 2009, is a nonprofit organization dedicated to civic improvement. The VSA
supports slow growth, the limits of the Venice Local
Coastal Specific Plan, neighborhood safety, better
traffic circulation, increased parking for residents,
neighborhood beautification projects, historic preservation, habitat restoration and protection of coastal
waters.
Representing residents in the Venice district of
the City of Los Angeles, California, the VSA has
grappled with the horrendous impact of the increase
of the homeless population in Venice from approximately 400 persons in 2014 to 1,100 persons now, as
documented by the Los Angeles Homeless Services
Authority’s annual homeless count.
The VSA provides research, education, advocacy
and litigation support for Venice Beach residents to
ensure that their voices are heard. VSA is presently
in litigation against the City of Los Angeles, the
California Coastal Commission and the Los Angeles
County Metropolitan Transportation Authority over
the erection of a 154-bed homeless shelter complex in
violation of the California Environmental Quality Act,
1 No party or counsel for a party authored this brief in whole or
in part. No one other than VSA made any monetary contribution
to fund the preparation or submission of this brief. Notice of
intent to file this brief was given to all parties on August 30,
2019. Blanket consents by both the City of Boise and Martin et
al. for the filing of amicus briefs were filed with the Clerk on
September 6, 2019.

2

VSA v. City of Los Angeles, Case No. 19STCP00044 and
VSA v. Los Angeles County Metropolitan Transportation Authority, Case No. 19STCP00629.
Mark Ryavec is the president and founder of VSA.
He has an extensive career in public policy. He holds
a B.A. in Psychology from UCLA and an M.A. in
Urban Studies from a joint degree program of the
CORO Foundation and Occidental College. He served
as a Legislative Analyst in the Office of the Chief
Legislative Analyst of the Los Angeles City Council
and in that capacity served as the principal staff for
Los Angeles Mayor Tom Bradley’s Commission on the
Redevelopment of Los Angeles’ Central Business District. Later he served as Chief Deputy for Los Angeles
County Assessor Alexander Pope. He also served as a
founding Director of the non-profit American Oceans
Campaign, its State Legislative Director in 1996, and
as a member of the Board of Governors of Oceana, a
global ocean protection NGO. For five years in the
early 2000s he was Executive Director of Neighborhood
Partners, a non-profit affordable housing provider in
the San Fernando Valley. As a public affairs consultant
he has represented clients as varied as No Oil, Inc.,
Browning-Ferris Industries, Marquart Corporation (a
rocket propulsion firm), Writers Guild of America, West,
and the Consulate General of Sweden and the Los
Angeles Consular Corps.
The outcome of the decision in Martin will directly
and profoundly impact VSA’s ability to influence local
policy makers to make sound decisions regarding
homelessness and its impacts on the community. If
Martin stands, the power of municipalities to enforce
anti-loitering and anti-camping ordinances and to

3
take other steps to protect the public welfare will be
diminished to the detriment of those who suffer the
adverse impacts of homelessness in their communities.
The balance between the rights of the homeless and
those that also suffer from the impacts of the homeless
will be irrevocably altered.

ARGUMENT
I.

THE COURT SHOULD REVIEW AND REVERSE MARTIN
BECAUSE CITIES SUCH AS BOISE AND LOS ANGELES
ARE HAMSTRUNG BY ITS REQUIREMENT OF PROVIDING BEDS FOR ALL HOMELESS BEFORE ENFORCING MUNICIPAL LAWS FOR THE PROTECTION OF
HEALTH AND PUBLIC WELFARE.

The increase in homeless on Venice’s sidewalks,
alleys and along its beach is in significant measure
due to the laissez-faire conditions following the 2007
settlement reached in Jones v. City of Los Angeles,
444 F.3d 1118, 1138 (9th Cir. 2006), vacated, 505 F.3d
1006 (9th Cir. 2007). Jones was brought by six homeless individuals challenging enforcement of criminal
penalties for lying, sitting or sleeping on a sidewalk.
The Jones plaintiffs challenged the criminal penalties
on the grounds that Los Angeles had insufficient shelters
and, therefore, the punishment was cruel and unusual
within the meaning of the Eighth Amendment.
In 2006, the Ninth Circuit found in favor of the
Jones plaintiffs and found a violation of the Eighth
Amendment. Legal scholars condemned the Jones decision as an unwarranted impairment of the power of

4
cities to protect the public health. See Emily N. McMorris, Jones v. City of Los Angeles: A Dangerous

Expansion of Eighth Amendment Protections Stifles
Efforts to Clean up Skid Row, 40 LOY. L.A. L. REV.
1149, 1150 (2007) [referring to the Jones opinion as a
“misinterpretation and exceedingly broad reading” of
Eighth Amendment precedent]; and Mary Boatright,
Jones v. City of Los Angeles: In Search of a Judicial
Test of Anti-Homeless Ordinances, 25 LAW & INEQ.
515, 527 (2007) [referring to the Jones analysis as
“oblique and confusing”.]

Following the 2006 ruling in Jones, a settlement
was reached in 2007. The City of Los Angeles agreed
to forego enforcement of its “No lying, sitting or sleeping
on a sidewalk” ordinance (L.A. Mun. Code § 41.18(d))2
between the hours of 9 p.m. and 6 a.m. until 1,250 units
of permanent, supportive housing for the homeless
were constructed.
Los Angeles Mayor Eric Garcetti announced3 in
January 2018 that the necessary permanent additional
1,250 units had been constructed and the City would
begin returning to nighttime enforcement of Section
41.18(d) in instances when the city had offered a
shelter bed and it had been declined. After the Ninth
Circuit decided Martin, this return to enforcement was
abandoned and the homeless population expanded in
2 Further statutory references are to the Los Angeles City
Municipal Code.
3 Los Angeles Times, Garcetti Says L.A. Can Resume Disputed
Ban on Overnight Sidewalk Sleeping, https://www.latimes.com/
local/lanow/la-me-ln-sidewalk-sleeping-20180622-story.html,
last accessed August 25, 2019.

5
Los Angeles by 12% in 2018 and by 16% in Venice in the
same period.4
The increase in Venice results from a convergence
of Venice’s historic luster as a tourist destination, its
delightful weather, the easy availability of drugs,
and the well-publicized roll back of any municipal
enforcement of ordinances meant to promote civil
society, public health and safety, and quality of life
for residents and visitors alike.
Homeless individuals in Venice routinely camp
within feet of residents’ homes and businesses’ front
doors. Under both Jones and then Martin, many
homeless have developed a sense of entitlement to
any public property and frequently extend this to
occupation of private property abutting public property, such as front yards, side-yard setbacks, driveway
aprons and carports. In the last few years this has
extended to occupation of buildings unoccupied due to
recent sale or under construction.
Under the Jones settlement, while the City of Los
Angeles could enforce Section 41.18(d) during the
day from 6 a.m. to 9 p.m. to push homeless encampments—at least during the day—away from burdened
residents, it rarely did. To prosecute individuals who
failed to abide by Section 41.18(d)’s prohibition on lying,
sitting or sleeping on a sidewalk after 6 am required
four (4) hours of work by two officers: to arrest that
person, confiscate and inventory his/her belongings,
4 Courthouse News Services, ‘Commercialized Grittiness’ Taking
Hold in Free-Spirited Venice, California, https://www.courthouse
news.com/commercialized-grittiness-taking-hold-in-free-spirited
-venice-california/, last accessed August 16, 2019.

6
and then transport and book that individual at the
Pacific Division station. With an already understaffed
police force, the LAPD would only rarely enforce
Section 41.18(d).
The broad and contradictory language of Martin
has gone further in this direction, leaving the Los
Angeles City Attorney to advise the LAPD to not enforce
Section 41.18(d) and aspects of the related parks ordinance, Section 63.44.5 The result is large encampments
on world famous Venice Beach, with certain sections
taken over permanently by the homeless.
On one hand, the Martin court disingenuously held
that it is not dictating “to the City that it must provide sufficient shelter for the homeless, or allow
anyone who wishes to sit, lie, or sleep on the streets
. . . at any time and at any place,”6 while at the same
time holding “that so long as there is a greater number
of homeless individuals in a jurisdiction than the
number of available beds in shelters, the jurisdiction
cannot prosecute homeless individuals for involuntarily
sitting, lying and sleeping in public.”7
In the second quoted clause above, the Martin court
overturns the permission it affords jurisdictions in
the first clause to enforce restrictions on where individuals sit, lie or sleep on the streets . . . and at what
time or place they may do this.
5 See July 30, 2019 Motion by City of LA Committee of Homelessness and Poverty recommending deletion of Section 41.18(d)
based on Martin, http://clkrep.lacity.org/onlinedocs/2019/19-0602s1_mot_07-30-2019.pdf, accessed on August 25, 2019.
6 Martin, at 1048.
7 Martin, at 1048.

7
Based on the recent $60,000 construction cost per
bed8 of Los Angeles Mayor Eric Garcetti’s first Bridge
Housing project (El Pueblo), Los Angeles would have
to spend $2.1 billion9 to provide temporary shelter
beds for the entire 36,000 homeless population.10 That
is more than one-fifth of the city’s 2018-19 $9.8
billion budget.11 Permanent, brick-and-mortar housing
units, at the current average $525,000 cost per unit,
would cost the city $19 billion.12

8 Los Angeles Downtown News, High Security Costs Tied to
Bridge Housing Patrols, http://www.ladowntownnews.com/news/
high-security-costs-tied-to-bridge-housing-patrols/article_31d2f7cc6870-11e9-8289-c7b22d8543a1.html, last accessed on August 25,
2019.
9 Admittedly, $2.1 billion is VSA’s estimate. The City of LA estimates that it would cost $500,057,347 to provide interim housing
for all of the City of LA’s homeless. June 18, 2018 memo by Los
Angeles Homeless Services Authority, https://www.documentcloud.
org/documents/4550980-LAHSA-Sheltering-Report.html#document
/p14/a431609, last accessed on August 24, 2019. Half a billion
dollars still represents an unrealistically high share of the City’s
total annual expenditures.
10 2019 Greater Los Angeles Homeless Survey, https://www.lahsa.
org/documents?id=3421-2019-greater-los-angeles-homeless-countcity-of-los-angeles.pdf, last accessed on August 25, 2019.
11 City of LA 2018-19 Budget issued by L.A. Controller’s Office,
https://lacontroller.org/wp-content/uploads/2019/02/BUDGET2018-19.pdf, last accessed on August 25, 2019.
12 USA Today, $700K for an Apartment? the Cost to Solve the
Homeless Crisis Is Soaring in Los Angeles, https://amp-usatodaycom.cdn.ampproject.org/v/s/amp.usatoday.com/amp/1984064001
?usqp=mq331AQEKAFwAQ%3D%3D&amp_js_v=0.1, last accessed
on September 19, 2019.

8
A. The Martin Court Erred in Requiring Beds for
an Entire Homeless Population Rather than
Beds for the Number of Homeless Cited on Any
Given Night
The Martin court failed to entertain the possibility
that a city would rarely if ever attempt to cite every
homeless person in its jurisdiction for camping on
public property at the same time (no police department
has the officers nor the jails to do this), but rather
would use the bar on camping judiciously, one camper
or one encampment at a time, to address a particular
person or group of campers that are especially
destructive to the environment, or disruptive of a
neighborhood through noise, accumulation of trash,
human sewage and food waste, used needles, and
threats to nearby residents and/or business owners.
The Martin court thus should have only required that
a shelter bed be available for those few campers the
jurisdiction’s officers might in the course of a typical
day be called upon to ask to move on due to the harm
they are causing. A requirement that in each instance
an offer for a shelter bed be documented would
accomplish the same result—no one would be cited if
a bed was not truly available—without hamstringing
the jurisdiction from addressing problematic homeless
campers who have no interest in housing.
B. The Martin Court Failed to Adequately Define
“Voluntary” and “Involuntary” as It Relates to
Homelessness
Similarly, the Martin court made no effort to
examine and define the terms “voluntary” and “involuntary” in relation to the condition of being homeless.
Despite the Martin plaintiffs’ contention that their

9
homeless state was involuntary, VSA’s experience in
Venice is that just cursory questioning leads to a
different conclusion.
Some years ago, the VSA was approached by
Captain Dominic Choi, the commander of the LAPD
Pacific Division, and asked to raise funds for the
LAPD’s Venice Beach Homeless Task Force, which was
comprised of several LAPD officers and two local
chaplains, Regina and Steve Weller. The Task Force
would cruise Venice three afternoons a week getting
acquainted with the homeless campers. In addition to
placing any willing homeless individuals into rehab or
shelters, the Wellers focused on “family reunification;”
i.e., re-connecting homeless individuals with family
members “back home” who the individual described to
the Wellers as “safe.” Captain Choi asked the VSA to
provide bus tickets and meal vouchers to those individuals the Wellers had coaxed to accept a family
member’s invitation to return home. Hundreds were
sent home to welcoming families over the course of
several years.
With such a low bar to returning to being housed,
were these individuals really involuntarily homeless?
For example, it cost about $100 to bus to Tucson and
have a few meals along the way.
In discussions over the last ten years with social
service workers who counsel those who live on
Venice’s streets, VSA has learned that in the 16 to 24
age range over 70% are from out of state, and many
are self-described “travelers” who have no interest in
a shelter bed or housing. Under Martin, Los Angeles
(and all other jurisdictions) would have to build or
lease housing beds for these “travelers” who forego

10
shelter in all instances before it could enforce antiloitering and anti-camping laws.
C. The Martin Court Failed to Consider the
Impact of Homeless Encampments on the Use
of Shelters
The Martin court also did not understand that the
development of semi-permanent encampments, such as
the one on Third Street between Rose and Sunset
Avenues in Venice, are themselves barriers to rescuing
homeless individuals from the street. Outreach and
placement efforts were frequently in conflict with the
familial bonds that developed between those living in
Venice’s encampments. Often times, a counselee may
agree to a placement—in rehab, a shelter, a shared
apartment, permanent/supportive housing, or family
reunification—but would not show up at the appointed
time for transport. They did not want to give up the
street “family” of which they had become a part. These
individuals were voluntarily remaining homeless as
much as the young “travelers,” who have no interest
in shelter.13
The failure of the court to limit its decision to
those who by some criteria are truly without some
resources or options to change their status from
13 CNN recently profiled a Yale graduate. Dan Simon, CNN, He
Was a Yale Graduate, Wall Street Banker and Entrepreneur.
Today He Is Homeless in Los Angeles. https://edition.cnn.com/
2019/09/17/us/los-angeles-yale-graduate-homeless/index.html?
no-st=1568949532, last accessed on September 19, 2019. The story
highlights the frequency of voluntary homelessness. The subject
has a standing offer from his family for housing but prefers to
work through the issue himself.

11
unhoused to housed alone demands that the Martin
decision be overturned.
The results of the wide-open nature of the Martin
decision in a dense urban setting such as Venice,
California have been catastrophic.
In just one example, it allowed a 20-person
encampment to set up on the 200 block of Grand
Boulevard (formerly a canal in the era of Venice’s
founder Abbot Kinney), alongside the Venice Post
Office’s large parking lot filled with 40 delivery
trucks and across the street from single family homes
and duplexes with an assortment of retirees, families
and young couples.
In one case documented on the Neighbors of Grand
email list-serve, a couple on drugs engaged in a fierce
argument on July 9, 2016 at 7:30 a.m., shouting
obscenities at each other. Quoting from resident John
Vester’s message to his neighbors:
“The loudest, most obnoxious of the homeless
across the street loudly THREATENED TO
KILL one of the other homeless, then when
one of our neighbors [Underwood] asked
them to please be quiet, he started loudly
mimicking her while jumping up & down
then he loudly THREATENED TO BURN
HER HOUSE DOWN.”
The LAPD responded an hour and a half later,
after the couple had stopped fighting; the officers
would not give credence to the threat reported by Mr.
Vester. Such nighttime intrusions into the lives of
residents are frequent occurrences all over Venice,
and indeed, all over Los Angeles.

12
This encampment was the generator of crime
of all types: car break-ins, vandalism, thefts from
residents’ yards of children’s toys and lawn furniture,
trespass, and defecation and urination on private and
public property. In one instance a camper threw a
heavy object over the Post Office’s fence and shattered
the front windscreen of an employee’s personal vehicle.
In another, one of the campers living in the encampment shot and killed a man with whom he had a
verbal clash at the nearby Surfside restaurant on
March 7, 2018.14
The sidewalk and parkway, about 12 feet wide,
were constantly blocked by the campers’ accumulation
of “stuff,” including furniture such as chairs and
tables, tents, dogs, mattresses, sleeping bags, duffel
bags, luggage, food, backpacks, and bicycles-and piles
of trash and food waste. Despite ADA requirements,
there was no passage available for the disabled. The
disabled, those pushing baby carriages, and other pedestrians had to walk the length of the block in the
street-exposed to traffic-to get from one end of the
block to the other.
This encampment resulted in the filing of an OSHA
complaint against the U.S. Postal Service by letter
carriers. Due to the necessary arrival throughout the
14 “The following day, LAPD arrested 46-year-old Robert Mewhorter in connection with the shooting. Identified from video footage
and witness descriptions, Mewhorter “was spotted the next day
near an encampment where he lived on Grand” Avenue in Venice.
According to Stevens, Mewhorter was living in the encampment.”
Another Shooting in Venice Police Hunting for Suspect, Yo Venice!,
https://yovenice.com/2018/03/15/another-shooting-in-venice-policehunting-for-suspect/ (last visited August 16, 2019).

13
night of large trucks delivering the next day’s mail,
the Post Office staff had to leave its driveway gate on
Grand open. At night members of the encampment
would trespass into the parking lot and relieve themselves between the parked delivery trucks. The next
day, carriers, who spend the morning at their trucks
sorting mail, would have to stand in human sewage
and breathe the fumes from the accumulated urine
and feces for several hours as part of their job. The
U.S. Postal Service had to pay a fine as a result of
the OSHA complaint.
This unacceptable situation was only remedied
when neighborhood residents, working with the VSA
and the Post Office management, raised $35,000 and
built and installed 55-4’ x 8’ planter boxes filled with
succulents on the parkway on Grand and on two other
streets, Windward and Riviera, that also border the
Post Office.15 The planter boxes, placed on the parkway
between the sidewalk and curb, blocked erection of
tents, or accumulation of large piles of personal possessions, and thus blocked the return of the encampment.
Though such planter boxes can be permitted under
the Los Angeles Municipal Code, the City’s Bureau of
Engineering has until recently denied any applications
for such projects in Venice. Several projects that
were installed at the urging of the Los Angeles Police
Department and the 11th City Council District have
recently been cited by the City’s Street Services Bureau
15 The installation of these planter boxes was documented by
a National television news report, Venice Beach Residents Rally
to Combat Homeless Encampments in Their Neighborhood,
Fox News, Aug. 29, 2019, available at https://video.foxnews.com/
v/6080063740001/#sp=show-clips

14
and threatened with removal. Only on August 26,
2019, after public outcry against the threat of removal,
did the City Bureau of Street Services agree to let
un-permitted planters remain in place while property
owners applied for city permits.
The Martin decision has paralyzed the city of
Los Angeles (and it appears other cities in the Ninth
Circuit’s jurisdiction), blocking any commonsense
regulation of homeless encampments and leading to
a severe breakdown in the norms of civil society. The
decision so broadly defined “involuntarily homeless”
that it includes many who have resources or options
to be housed but, for a variety of discoverable reasons,
choose not to pursue them. It has made living in
encampments preferable to accepting available options
to leave the streets; food, water, blankets and tents
are delivered by well-meaning service agencies, showers
and restrooms are open 24 hours a few blocks away,
and there is no rent. This has placed a heavy burden
on residents and business owners while preventing
police from protecting them.
The VSA urges the Court to review and reject

Martin for its evisceration of municipalities’ ability to

control local health and safety, and its erosion of
residents’ right to the quiet enjoyment of their homes.

15

CONCLUSION
For the foregoing reasons, the VSA respectfully
urges this Court to grant the City of Boise’s Petition
for a Writ of Certiorari.
Respectfully submitted,
JEFFREY LEWIS

COUNSEL OF RECORD FOR AMICUS CURIAE

JEFF LEWIS LAW

609 DEEP VALLEY DRIVE, SUITE 200
ROLLING HILLS ESTATES, CA 90274
(310) 935-4001
JEFF@JEFFLEWISLAW.COM
SEPTEMBER 25, 2019

16
APPENDIX TABLE OF CONTENTS
Affidavit of Mark Ryavec Regarding Interests of
VSA (September 25, 2019) ................................. 1a
Photos of the Impact of Homeless Problems in
Venice Beach....................................................... 7a

App.1a
AFFIDAVIT OF MARK RYAVEC
REGARDING INTERESTS OF VSA
(SEPTEMBER 25, 2019)
Mark Ryavec, First Duly Sworn Upon Oath, States
as Follows:
1. The Venice Stakeholders Association (“VSA”)
was founded in 2009 and is a nonprofit organization
dedicated to civic improvement. The VSA supports slow
growth, the limits of the Venice Local Coastal Specific
Plan, neighborhood safety, better traffic circulation,
increased parking for residents, neighborhood beautification projects, historic preservation, habitat restoration and protection of coastal waters.
2. Representing residents in the Venice district
of the City of Los Angeles, California, the VSA has
grappled with the horrendous impact of the increase
of the homeless population in Venice from approximately 400 persons in 2014 to 1,100 persons now, as
documented by the Los Angeles Homeless Services
Authority’s annual homeless count.
3. The VSA provides research, education, advocacy, and litigation support to Venice Beach residents
to ensure that their voices are heard. VSA is presently
in litigation against the City of Los Angeles, the
California Coastal Commission and the Los Angeles
County Metropolitan Transportation Authority over
the erection of a 154-bed homeless shelter complex in
violation of the California Environmental Quality
Act, VSA v. City of Los Angeles, Case No. 19STCP00044 and VSA v. Los Angeles County Metropolitan
Transportation Authority, Case No. 19STCP00629.

App.2a
4. I am the president and founder of VSA. I have
had an extensive career in public policy. I hold a BA
in Psychology from UCLA and an MA in Urban Studies
from a joint degree program of the CORO Foundation
and Occidental College. After graduate school I served
as a Legislative Analyst in the Office of the Chief
Legislative Analyst of the Los Angeles City Council
and in that capacity served as the principal staff for
Los Angeles Mayor Tom Bradley’s Commission on the
Redevelopment of Los Angeles’ Central Business District. Later I served as Chief Deputy for Los Angeles
County Assessor Alexander Pope. I also served as a
founding Director of the non-profit American Oceans
Campaign, its State Legislative Director in 1996, and
as a member of the Board of Governors of Oceana, a
global ocean protection NGO. For five years in the
early 2000s he was Executive Director of Neighborhood
Partners, a non-profit affordable housing provider in
the San Fernando Valley. As a public affairs consultant
I have represented clients as varied as No Oil, Inc.,
Browning-Ferris Industries, Marquart Corporation (a
rocket propulsion firm), Writers Guild of America,
West, and the Consulate General of Sweden and the
Los Angeles Consular Corps.
5. I believe that the outcome of the decision in
Martin will directly and profoundly impact VSA’s ability
to influence local policy makers and law enforcement
officials to make sound decisions regarding homelessness and its impacts on the community. If Martin
stands, the power of municipalities to enforce antiloitering and anti-camping ordinances and to take other
steps to protect the public welfare will be diminished
to the detriment of those who suffer the adverse
impacts of homelessness in their communities. The

App.3a
balance between the rights of the homeless and those
that also suffer from the impacts of the homeless,
including residents and business owners, will be
irrevocably altered.
6. Some years ago, the VSA was approached by
Captain Dominic Choi, the commander of the LAPD
Pacific Division, and asked to raise funds for the LAPD’s
Venice Beach Homeless Task Force, which was comprised of several LAPD officers and two local chaplains,
Regina and Steve Weller. The Task Force would cruise
Venice three afternoons a week getting acquainted with
the homeless campers. In addition to placing any
willing homeless individuals into rehab or shelters,
the Wellers focused on “family reunification;” i.e.,
reconnecting homeless individuals with family members “back home” who the individual described to the
Wellers as safe. Captain Choi asked the VSA to provide
bus tickets and meal vouchers to those individuals
the Wellers had coaxed to accept a family member’s
invitation to return home. Hundreds were sent home
to welcoming families over the course of several
years. With such a low bar to returning to being
housed were these individuals really involuntarily
homeless? For example, it cost about $100 to bus to
Tucson and have a few meals along the way.
7. In another instance, while serving on a committee attempting to address the homeless issue in
Venice, I met a homeless fellow who was a member of
a Hollywood craft guild. The work required physical
labor and he had injured his shoulder, so temporarily
he could not work. I asked if he had family he could
stay with and he replied that he had parents in San
Francisco, but he liked the weather here better and

App.4a
would rather be homeless here on Venice Beach until
his shoulder healed than return to live with his parents.
8. In discussions over the last ten years with social
service workers who counsel those who live on Venice’s
streets, VSA has learned that in the 16 to 24 age
range over 70% are from out of state, and many are
self-described “travelers” who have no interest in a
shelter bed or housing. Having backpacked around
Europe as a young man, I understand their journey.
However, I never camped out on a sidewalk or defecated
in an alley, and none of the countries I visited would
have allowed this. The majority of adult homeless
here above the age of 24 also eschew a shelter bed, as
shown by the large number of beds which remain
unused even in the fiercest storms in the county’s
Winter Shelter in nearby West Los Angeles. This is
the door that Martin has opened.
9. The Martin court did not understand that the
development of semi-permanent encampments, such as
the one on Third Street between Rose and Sunset
Avenues in Venice, are themselves barriers to rescuing
homeless individuals from the street. Both Steve Weller
and Tim Pardue, the former director of the Venice
Teen Project, related to me that their outreach and
placement efforts were frequently in conflict with the
familial bonds that developed between those living in
Venice’s encampments. Mr. Weller and Mr. Pardue told
me of numerous instances when a counselee would
agree to a placement—in rehab, a shelter, a shared
apartment, permanent/supportive housing, or family
reunification—but would not show up at the appointed
time for transport. In a later meeting they would
sheepishly explain that they did not want to give up
the street “family” of which they had become a part.

App.5a
These individuals were voluntarily remaining homeless
as much as the young “travelers,” who have no interest
in shelter.
10. In support of this motion for leave to file an
amicus brief and to demonstrate the VSA’s interest
in the outcome of this matter, I offer the following
text of a July 9, 2016 email by Venice resident and VSA
supporter John Vester to then LAPD Senior Lead
Officer Peggy Thusing:
Hi Again Officer Peggy (& LA City/LAPD
Chain of Command & VNC)
Again, our problem with the LOUD obnoxious
homeless camping (& urinating & defecating
& fighting with LOUD dogs barking. . . . )
right across the street from our homes is an
ongoing, escalating
EVERY MORNING 6 am problem & now
THEY ARE THREATENING RESIDENTS
Location: Directly across from 228 Grand
Blvd. in front of Venice PO
We are currently getting NO RESPONSE
from LAPD regardless what # we call
I haven’t seen an LAPD car even pass by the
homeless encampment. . . . NO RESPONSE
This morning at 7:30 (90 minutes after they
are legally supposed to be gone) the loudest,
most obnoxious of the homeless across the
street loudly THREATENED TO KILL one
of the other homeless, then when one of our
neighbors asked them to please be quiet, he
started loudly mimicking her while jumping

App.6a
up & down then he loudly THREATENED TO
BURN HER HOUSE DOWN
Again:
These LOUD homeless are clearly abusing
what they call their right to camp on our
sidewalk, & they are breaking the law:
DISTURBING THE PEACE every morning
staying hours after the legal mandate &
now they are THREATENING RESIDENTS
Your help with this matter asap will be
greatly appreciated by all our neighbors & I
here in the westernmost block of Grand, I’ll
try calling your # this morning Officer Peggy
Thanks Again, JOHN VESTER
11. In support of this motion for leave to file an
amicus brief and to demonstrate the VSA’s interest
in the outcome of this matter, I offer three photographs
attached to this affidavit that demonstrate the impact
facing VSA members from the homeless problems in
Venice.
Mark Ryavec

Dated: September 25, 2019

App.7a
PHOTOS OF THE IMPACT OF HOMELESS
PROBLEMS IN VENICE BEACH

IMAGE 1

App.8a

IMAGE 2

App.9a

IMAGE 3

